WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.
v.
(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please checkthe appropriate boxes:
□ Please enter my appearance as Counsel of Record for all respondents.
□
■ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

□
■ I am a member of the Bar of the Supreme Court of the United States.
□ I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Sig nature
Date:
(Ty pe or print) Name
□ Mr.

□
■ Ms.

□ Mrs.

□ Miss

Firm
Address
City & State
Phone

Zip
Email

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC:

